               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       City Delivery — Street Efficiency
              San Diego District

                       Audit Report




                                              June 5, 2012

Report Number DR-AR-12-001
                                                                                 June 5, 2012

                                                        City Delivery — Street Efficiency
                                                                       San Diego District

                                                            Report Number DR-AR-12-001



IMPACT ON:
City Delivery Operations.                     the district manager, San Diego District,
                                              reduce workhours by 83,943. We also
WHY THE OIG DID THE AUDIT:                    recommended he reinforce policies and
Our objective was to assess the overall       procedures for supervising city delivery
street efficiency of city delivery in the     street operations in delivery units and
San Diego District and identify               eliminate inefficient practices. Further,
opportunities for efficiency and cost         we recommended the district manager
savings. Street delivery includes carriers    require managers to regularly
delivering and collecting mail on their       coordinate, review, and update
assigned routes.                              integrated operating plans to ensure
                                              mail arrives timely to carriers units.
WHAT THE OIG FOUND:
The San Diego District has opportunities      WHAT MANAGEMENT SAID:
for enhanced street delivery efficiency.      Management agreed with the findings,
We determined the San Diego District          recommendations, and monetary
could use approximately 6 minutes less        impact. Management also stated that
street time per day on each carrier           ongoing plans were in place prior to the
route, or about 83,900 workhours              audit to address the types of issues
annually. Our review of selected delivery     identified and confirmed the district is
units determined that management did          moving in the right direction and plans to
not always reinforce U.S. Postal Service      complete actions by October 1, 2014.
policies and procedures for supervising
city delivery street operations in delivery   AUDITORS’ COMMENTS:
units and eliminate inefficient practices.    The OIG considers management‟s
An increased focus on efficiency could        comments responsive to the findings,
allow management to reduce carrier            recommendations, and monetary impact
street workhours and save about               in the report.
$3.4 million annually.

WHAT THE OIG RECOMMENDED:                     Link to review the entire report
The U.S. Postal Service Office of
Inspector General (OIG) recommended
June 5, 2012

MEMORANDUM FOR:              LARRY P. MUNOZ
                             DISTRICT MANAGER, SAN DIEGO DISTRICT




FROM:                        Robert J. Batta
                             Deputy Assistant Inspector General
                              for Mission Operations

SUBJECT:                     Audit Report — City Delivery — Street Efficiency in the San
                             Diego District (Report Number DR-AR-12-001)

This report presents the results of our audit of city delivery street efficiency in the
San Diego District (Project Number 12XG004DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.


Attachments

cc: Drew T. Aliperto
    Dean J. Granholm
    Elizabeth A. Schaefer
    Philip K. Knoll
    Martin T. Aiello
    Corporate Audit and Response Management
City Delivery — Street Efficiency                                                                                  DR-AR-12-001
 San Diego District


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 2

Conclusion ...................................................................................................................... 2

Street Delivery Efficiency ................................................................................................ 2

   Street Supervision ....................................................................................................... 3

   Setting Expectations and Following Up on Previous Street Performance ................... 3

   More Efficient Carrier Practices ................................................................................... 4

   Delivery Point Sequencing Handling ........................................................................... 6

   Integrated Operating Plan............................................................................................ 7

   Management Actions ................................................................................................... 7

Recommendations .......................................................................................................... 8

Management‟s Comments .............................................................................................. 9

Evaluation of Management‟s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Monetary Impact ....................................................................................... 13

Appendix C: Management‟s Comments ........................................................................ 14
City Delivery — Street Efficiency                                                                        DR-AR-12-001
 San Diego District



Introduction

This report presents the results of our audit of city delivery street1 efficiency in the
San Diego District (Project Number 12XG004DR000). This topic was discussed with the
vice president, Delivery and Post Office Operations, and agreed to as a Value
Proposition2 audit for fiscal year (FY) 2012. Our objective was to assess the overall
efficiency of city street delivery and identify opportunities for costs saving within the
San Diego District. See Appendix A for additional information about this audit. The audit
addresses operational risk and is one in a series to be conducted by the U.S. Postal
Service Office of Inspector General (OIG).

The U.S. Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. In contrast, delivery points have increased by over 2.3 million
since 2008.3 The Postal Service must improve operational efficiency to reduce costs
while facing financial losses from declining mail volume.

Conclusion

The San Diego District has opportunities for enhanced city street delivery efficiency and
reduced workhour costs. We determined the San Diego District could use at least
6 minutes less street time per day on each carrier route, or about 83,900 workhours
annually. As a consequence, the Postal Service would save about $3.4 million annually
(see Appendix B).

Street Delivery Efficiency

An increased focus on efficiency could allow management to reduce carrier street
workhours. Our review of 13 randomly4 selected delivery units determined that
management did not always reinforce Postal Service policies and procedures for
supervising city delivery street operations in delivery units which allowed for some
inefficient delivery practices. For example, management needs to ensure that:

   There is a consistent supervisory presence on the street.

   Supervisors set daily expectations and follow up on the previous day‟s street
    performance.


1
  Street delivery (or street time) is comprised of every duty a carrier performs from the time they load their vehicle,
deliver, and collect mail along the route to their return to the delivery unit to unload their vehicle.
2
  An agreement between the director of Delivery and vice president of Delivery and Post Office Operations on work
that will address issues of importance to the Postal Service.
3
  City delivery is responsible for 1,097,020 of the 2,390,741 increase in delivery points from FYs 2007 through 2011.
4
  We obtained the random sample from those delivery units having 15 or more routes and using 875 or more hours
than projected in the Delivery Operations Information System (DOIS) during FY 2011.

                                                           2
City Delivery — Street Efficiency                                                                            DR-AR-12-001
 San Diego District



   Carriers deliver mail using the most efficient habits so as not to incur unnecessarily
    additional street time.

   Carriers do not unnecessarily handle delivery point sequence5 (DPS) mailing.

   Delivery unit and processing plant management update the integrated operating
    plans6 (IOPs) for units to receive the proper mail types at scheduled times so
    carriers do not have to wait on mail before departing for the street and potentially
    delaying their return to the office.

Street Supervision

Supervisors did not provide sufficient oversight of street operations. One of the tools
used to assist in conducting street supervision is a Postal Service (PS) Form 3999,
Inspection of Letter Carrier Route,7 documenting the carrier's ability to perform their
route on the street. However, our review showed that unit management often did not
have up-to-date PS Forms 3999. In fact, 30 percent of these forms8 were more than
1 year old. Having a current PS Form 3999 allows the supervisor to know exactly the
carrier's line-of-travel and where a carrier should be and at what time. A current
PS Form 3999 also allows the supervisor to know how long a section of deliveries
should take and that can help a supervisor monitor street performance.
Supervisors are required to complete a PS Form 3999 at least annually. Postal Service
policy9 states that “All carriers are to be notified to expect daily supervision on the
street” and “. . . accompanying carriers on the street is an essential responsibility of
management.” When asked, several carriers stated they occasionally observed
supervisors while on the street, but not on a regular basis. Some supervisors said they
would like to spend more time observing street operations and correcting inefficient
carrier habits; however, their duties in the office often prohibit them from performing
these observations.
Setting Expectations and Following Up on Previous Street Performance

Supervisors must set daily expectations for carrier performance. Although we observed
examples of supervisors setting expectations for carriers‟ street leave and return times,
they usually accepted the carriers‟ leave and return times without validating the time
based on mail volume or other factors. We also found that they did not always assess

5
  A process for sorting bar-coded letter mail at the processing plants and delivery units into the carrier‟s line-of-travel.
Mail is taken directly to the street, with no casing time in the office.
6
  The IOP contract covers mail arrival from the plant and identifies the product of mail for each individual trip. The
primary purpose is to stabilize mail flow.
7
  A route examiner uses PS Form 3999 to record all pertinent information concerning the carrier's demonstrated
street performance. PS Form 3999 is a primary element in establishing DOIS street time for a route. This base street
sets the daily expectation for a carrier's street performance.
8
  A review of the Enterprise Data Warehouse (EDW) showed 852 of 2,882 PS Forms 3999 older than a year as of
December 16, 2011.
9
  Postal Service Handbook M-41, City Delivery Carriers Duties and Responsibilities Section 134.11, Management of
Delivery Services, March 1998.

                                                             3
City Delivery — Street Efficiency                                                                     DR-AR-12-001
 San Diego District


the workload for the day by observing the mail volume at the carrier„s case and have a
dialogue with the carrier about expectations for the day.

Moreover, delivery unit management usually sets daily expectations for street duties but
did not always follow up on the previous day‟s street performance. The DOIS Route
Carrier Performance Report provides the supervisor with information needed to discuss
carrier performance. Although supervisors printed the report, they did not always
discuss it with carriers at 10 of 13 units observed. If a carrier does not meet
performance standards, a supervisor must investigate and discuss performance
deficiencies with the carrier.10 Furthermore, management should also take advantage of
opportunities to discuss good performance with a carrier.

More Efficient Carrier Practices

The OIG observed instances of carriers not using efficient carrier practices while
performing street duties at all 13 delivery units. Although we can trace some of the
inefficient habits to waiting on mail or parcels, we observed opportunities for carriers to
be more efficient and save street time while delivering mail. These opportunities include
the following:

    More efficient loading of vehicles.
    Using satchels to hold mail.
    Fingering11 mail between deliveries.
    Making multiple trips to vehicles at cluster box units12 (CBUs).

We observed opportunities for carriers to more efficiently load vehicles before they
depart for the street. These included instances such as rehandling parcels by placing
them on the ground before placing them in the vehicle, going to their personal vehicles,
or engaging in unnecessary conversations or telephone use (see Illustrations 1 and 2).




10
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, 2007, Section 5-7.
11
   The final separation of mail for the next several stops along with the verification of the address for delivery.
12
   CBUs are a centralized unit of individually locked mailboxes. CBUs are commonly used in new housing
neighborhoods and for a single building that houses multiple businesses and are the most efficient means of delivery
for the Postal Service.

                                                         4
City Delivery — Street Efficiency                                                                         DR-AR-12-001
 San Diego District



Illustration 1: Carrier Rehandling                         Illustration 2: Carrier Texting on Cell
Parcels During Loading                                      Phone During Loading




Source: OIG.                                                 Source: OIG.

We observed multiple instances of carriers not using satchels to deliver mail, thereby
making multiple trips to and from their vehicles for more mail, incurring additional street
time. Postal Service procedures require carriers delivering mail on park-and-loop routes
to use their vehicles as movable relay boxes13 from which they withdraw a substantial
amount of mail and place it into a satchel before beginning the route. Carriers are
required to carry the appropriate amount of mail, up to the 35-pound limit, to complete
each assigned relay without additional trips to the vehicle or relay box14 (see Illustration
3).

               Illustration 3: Carrier Delivering Mail Without Required Satchel




                    Source: OIG.



13
   Bundles or strapped mail the carrier prepares in sacks for delivery to boxes on the carrier‟s line-of-travel. When the
carrier completes delivery of carry-out mail, they may pick up additional mail from relay boxes and continue this
process until the entire route is served.
14
   City Delivery Carriers Duties and Responsibilities, Postal Service Handbook M-41, March 1998, Section 273.


                                                            5
City Delivery — Street Efficiency                                                                       DR-AR-12-001
 San Diego District


We also observed some carriers not “fingering” mail between deliveries to place
mailpieces in the delivery order to avoid backtracking. A foot carrier routinely performs
this task en route between deliveries, while a motorized carrier performs this task as he
walks from the vehicle to a house box. If the delivery is a curb box, the carrier fingers
the mail in the vehicle before placing it in the box. In addition, we observed some
carriers making multiple trips from the vehicle to deliver mail to CBUs.

Delivery Point Sequencing Handling

In six of the 13 delivery units observed, DPS letters processed at the plants arrived at
delivery units in mail transport containers that carriers did not stage for easy retrieval.
This resulted in carriers having to unload and sort through transport containers to
identify their DPS while on street time.15 Postal Service policy16 states “…mail
processing should stage DPS letters for transport in shelved or modified containers so
individual trays do not have to be rehandled at the delivery unit” (see Illustration 4). In
addition, we observed that, after unloading and sorting through the containers, carriers
often handled DPS letters excessively on street time because of inefficient carrier habits
that supervisors do not typically monitor and correct. Postal Service policy17 states that
“DPS mail is not to be distributed to carriers but staged near the exit for transport to
vehicles so it can be taken directly to the street without further handling.”




15
    The OIG previously reported on the effects of DPS handling on carrier office efficiency and workhours in the report
titled National Assessment of City Delivery Efficiency 2011 – Office Performance (Report Number
DR-MA-11-002, dated July 19, 2011).
16
    Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 2-6, 2007.
17
    Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II
Guidebook, Section 4-5, 2007.

                                                           6
City Delivery — Street Efficiency                                                                        DR-AR-12-001
 San Diego District


             Illustration 4: Carrier Searching for DPS Mail in Unshelved Container




                             Source: OIG.

Integrated Operating Plan

Mail did not always arrive in the proper mail mix. We observed several instances in
which about 80 percent of flat mail arrived with DPS mail on the last dispatch of the
morning. Further, we observed parcels arriving along with DPS mail. This occurred
because mail arriving from the plant did not match the agreed upon mail mixtures as
outlined in the IOP. The IOP is designed to help stabilize mail flow and is critical in
establishing appropriate staffing and reporting times to ensure carriers are not delayed.
Delays can prolong carriers‟ return time beyond 5 p.m. and in some locations it may get
dark early, which also can prolong street time.18 Although the San Diego District has
daily meetings to report issues to the plant, mail flow issues often remain unresolved.

Management Actions

Although these challenges exist, San Diego District management proactively began
implementing their “Enabling Process” in FY 2011. This process involves senior
management mentoring delivery units that are not performing efficiently. These units are
provided with additional supervisory assistance to improve their operational
performance.

Adjusting its operations and improved supervision during carrier street delivery
would increase the San Diego District‟s overall efficiency by reducing 83,943 workhours.
We estimated this would result in savings of more than $3.3 million annually, or about
$6.8 million over 2 years (see Appendix B).



18
    The OIG previously reported on the effects of IOP issues on carrier office efficiency and workhours in the report
titled National Assessment of City Delivery Efficiency 2011 – Office Performance (Report Number DR-MA-11-002,
dated July 19, 2011).



                                                           7
City Delivery — Street Efficiency                                               DR-AR-12-001
 San Diego District



Recommendations

We recommend the district manager, San Diego District:

1. Reduce 83,943 workhours to achieve an associated economic impact of $3.4 million
   annually, or $6.8 million over 2 years.

2. Reinforce and ensure adherence to Postal Service policies and procedures for
   supervising city delivery street operations in delivery units and eliminating carrier
   inefficient practices during street time.

3. Require processing facility managers and delivery managers to regularly coordinate,
   review, and update integrated operating plans to ensure mail arrives timely and in
   the right mix so carriers are not delayed in departing for street delivery.




                                             8
City Delivery — Street Efficiency                                            DR-AR-12-001
 San Diego District



Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.

In response to recommendation 1, management agreed with the 83,943 workhour
savings. Management emphasized that plans were already in place prior to the OIG
review to reduce workhours and confirmed the district is moving in the right direction.
Management‟s plans include completion of all PS Form 3999 for the San Diego District
as well as having daily communications and actions established for the 24 best
opportunity offices to increase street performance. In a subsequent discussion,
management stated their plans are ongoing with an estimated completion date of
October 1, 2014.

Management responded to the second recommendation by agreeing there are
opportunities to save workhours associated with improving street efficiencies. The San
Diego District plans to use various delivery tools to continue to monitor, communicate,
and hold accountable the teams that are not working toward improving those
efficiencies. Management stated their plans are ongoing with an estimated completion
date of October 1, 2014.

Management responded to the third recommendation stating agreement with the finding
that IOPs and Mail Arrival Profiles (MAPs) need to be updated as changes are made
between the plant and Customer Service Operations. The San Diego District plans to
have all MAPs updated no later than May 30, 2012. Management further stated that, as
future changes occur, they will again update this information. See Appendix C for
management‟s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management‟s comments responsive to the recommendations in the
report. The OIG discussed findings with management throughout the audit and
management reported that corrective actions were taken prior to and during the audit,
and will continue after it.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service‟s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                           9
City Delivery — Street Efficiency                                                 DR-AR-12-001
 San Diego District



                                Appendix A: Additional Information

Background

The Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in FY 2011 declined by another 3 billion pieces to 168 billion, dropping total
mail volume to levels not seen since 1992. Since 2007, mail volume has dropped by
about 44 billion pieces. The Postal Service must improve operational efficiency to
reduce costs while facing financial losses from declining mail volume.

Despite a high degree of automation, mail delivery remains labor intensive. Labor costs
comprise nearly 80 percent of the Postal Service's costs. Delivery operations have the
highest fixed cost in the system, making up more than 30 percent of the Postal Service's
operating expenses. Within the delivery carrier‟s function, street operations made up
264,989,254 (more than 76 percent) of the overall 349,564,154 total office and street
workhours19 city carriers used in FY 2011. Street operations (or street time) is
comprised of every duty a carrier performs from the time they load their vehicle, deliver,
and collect mail along the route to their return to the delivery unit to unload their vehicle.
The San Diego District is located in the Pacific Area and has 106 delivery units
delivering mail on 3,043 routes.

Unlike the carrier office function, a supervisor is not always present to observe each
carrier as they conduct deliveries along their route. This leaves opportunity for
inefficiency to enter the process. To effectively manage this manual process and
improve productivity, delivery supervisors strive to eliminate process inefficiencies and
manage costs by accurately matching workload to workhours, adjusting or eliminating
unnecessary routes, managing staff resources, and following a rigorous standardization
of best practices.

Objective, Scope, and Methodology

Our objective was to assess the overall efficiency of city street delivery in the San Diego
District. To accomplish our objective, we:

     Determined and used DOIS street variance data to access performance and
      opportunities for efficiency based on discussions with Postal Service officials and
      OIG experts. Street operations have no preferred measurement of efficiency.

     Reviewed DOIS street variance hours from the EDW for FY 2011 in the San Diego
      District to determine the opportunity for greater efficiency. The difference between
      the DOIS projected street hours and the actual street hours used on an individual
      delivery route or entire unit resulted in the number of variance hours. A positive
      variance means the delivery unit used more street hours than DOIS projected, which


19
     DOIS workhours queried from the EDW.

                                                10
City Delivery — Street Efficiency                                                   DR-AR-12-001
 San Diego District


      indicates there is an opportunity for greater efficiency on the street than currently
       being performed.

      Determined the San Diego District used more street hours than DOIS projected for
       October 1, 2010 through September 30, 2011.

      Randomly selected 13 delivery units in the San Diego District that used more street
       hours than projected to determine opportunities for greater efficiency and reduced
       operating costs. We projected cost savings for delivery units in the San Diego
       District using more actual street hours than projected.

      Reviewed and discussed procedures for street operations with management in
       selected delivery units. We judgmentally selected individual city routes to review and
       observed carrier street performance.

      Reviewed documentation and applicable policies and procedures for city delivery
       and Postal Service Handbooks M-3920 and M-41.21

We conducted this performance audit from November 2011 to June 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 5, 2012, and included their
comments where appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems but performed limited data integrity review
to support our data reliance. We assessed the reliability of delivery points‟ data by
reviewing existing information about the data and the system that produced them, as
well as interviewing agency officials knowledgeable about the data. We determined that
the data were sufficiently reliable for the purposes of this report.




20
     Management of Delivery Services, March 1998.
21
     City Delivery Carriers Duties and Responsibilities, March 1998.

                                                            11
    City Delivery — Street Efficiency                                             DR-AR-12-001
     San Diego District



    Prior Audit Coverage

                                         Final
                           Report       Report      Monetary
   Report Title            Number        Date        Impact             Report Results
City Delivery           DR-AR-10-002    12/18/09   $21,308,433   The audit concluded the San
Efficiency Review                                                Francisco Napoleon Street
– San Francisco                                                  Station was not operating at
Napoleon Street                                                  peak efficiency and
Station                                                          management could reduce
                                                                 city delivery costs. Our
                                                                 benchmarking comparison of
                                                                 five similar delivery units
                                                                 showed this station used
                                                                 54,975 more workhours than
                                                                 necessary. We also found
                                                                 that management did not
                                                                 adjust workhours to changes
                                                                 in workload. Management
                                                                 agreed with our findings and
                                                                 recommendations to correct
                                                                 the issues identified.




                                                   12
City Delivery — Street Efficiency                                                           DR-AR-12-001
 San Diego District


                                      Appendix B: Monetary Impact

                 Finding                            Impact Category                    Amount
            Operating Efficiency                 Funds Put to Better Use22            $6,840,240

          Source: OIG.

We estimated the monetary impact of $6,840,240 in funds put to better use by reducing
83,943 workhours at delivery units in the San Diego District (see Table 1).

                           Table 1. San Diego District Workhour Savings
                                        Estimated Annual            2-year
                                        City          Estimated     Projection of
                                        Delivery      Savings from Savings from
                              Delivery Workhours Overtime           Overtime
         District             Units     Saved         Workhours     Workhours
         San Diego               106       83,943      $3,392,976     $6,840,240
        Source: OIG.

We calculated funds put to better use for reducing city carrier workhours using the
San Diego District city carrier overtime rate of $39.78 for FY 2011, with an escalation
factor of 1.6 percent for the 2-year projection.

The 83,943 annual workhour savings represent 5,036,580 minutes (83,943 hours
multiplied by 60 minutes). Dividing the more than 5 million minutes by 2,902 routes23 in
the San Diego District and then dividing by 303 annual days equals an approximate
savings of 6 minutes per route per day.




22
     Funds that could be used more efficiently by implementing recommended actions.
23
     Number of routes in the San Diego District as of November 30, 2011.

                                                         13
City Delivery — Street Efficiency                                DR-AR-12-001
 San Diego District


                             Appendix C: Management’s Comments




                                            14
City Delivery — Street Efficiency        DR-AR-12-001
 San Diego District




                                    15
